Pension Benefit Guaranty Corporation
      Office of Inspector General
              Audit Report



  Audit of Procurement Activities Related to
    Award of Morneau Sobeco Contracts
PBGC01-CT-00-0597 and PBGC01-CT-03-0667




           September 29, 2005
                                       2005-18/CA-0008-1
                      Pension Benefit Guaranty Corporation
                                                         Office of Inspector General
                                       1200 K Street, N.W., Washington, D.C. 20005-4026

                                                                            September 29, 2005



                                      MEMORANDUM


TO:             Bennie Hagans
                Director, Benefits Administration & Payment Department

                Robert Herting
                Director, Procurement Department

FROM:           Luther Atkins
                Assistant Inspector General for Audits

SUBJECT:        Report on Audit of Procurement Activities Related to Award of Morneau
                Sobeco Contract Nos. PBGC01-CT-00-0597 & PBGC01-CT-03-0667


This memorandum transmits report no. 2005-18/CA-0008-1 prepared by Cotton & Company LLP at
the request of the Office of Inspector General. During the six month period ending March 31, 2005,
the firm assessed PBGC’s compliance with applicable federal procurement, acquisition, and contract
laws and regulations as well as PBGC policies and directives related to procurement activities
conducted for award of the two contracts.

Attachment 1 of this report includes your response dated August 25, 2005 to the findings and
recommendations in the draft report. In addition, summaries of the response and auditors’ evaluation
are incorporated in the body of the report.

Attachment

cc: Stephen Barber
    William Hulteng
    Martin Boehm
    Debra Graul
    Janice D. Johnson




                                                                                      2005-18/CA-0008-1
             AUDIT OF PROCUREMENT ACTIVITIES RELATED TO
                       AWARD OF MORNEAU SOBECO
        CONTRACT NOS. PBGC01-CT-00-0597 AND PBGC01-CT-03-0667

                                SUBMITTED TO
                    PENSION BENEFIT GUARANTY CORPORATION
                         OFFICE OF INSPECTOR GENERAL




Cotton & Company LLP
Auditors • Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
(703)836-6701
www.cottoncpa.com




                                                           2005-18/CA-0008-1
March 31, 2005

Mr. Luther Atkins
Assistant Inspector General for Audit
Pension Benefit Guaranty Corporation
1200 K Street, NW, Suite 470
Washington, DC 20005

Subject:         Audit of Procurement Activities Related to Award of Morneau Sobeco Contracts
                 PBGC OIG Project No. CA-0008, Task Order No. CA-0008-1

Dear Mr. Atkins:

In accordance with terms of the subject task order, Cotton & Company LLP performed an audit of
procurement practices used for Morneau Sobeco Contract Nos. PBGC01-CT-00-0597 and PBGC01-CT-
03-0667. The audit included assessing compliance with applicable federal procurement, acquisition, and
contract laws and regulations as well as PBGC policies and directives related to award of these Morneau
contracts. We interviewed key personnel involved in the process and reviewed documents supporting
these efforts for compliance and reasonableness.

We identified specific control weaknesses and deficiencies and developed recommendations designed to
improve contract procurement functions and procedures. We conducted the audit in accordance with
Government Auditing Standards. We were not engaged to, and did not perform a financial statement
audit, the purpose of which would be to express an opinion on specified elements, accounts, or items.
This report is intended to meet the objectives described above and should not be used for other purposes.

Please call me if you have questions.

Very truly yours,

COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Partner




                                                                                         2005-18/CA-0008-1
       AUDIT OF PROCUREMENT ACTIVITIES RELATED TO
          AWARD OF MORNEAU SOBECO CONTRACTS
        PBGC01-CT-00-0597 AND PBGC01-CT-03-0667
              AUDIT REPORT 2005-18/CA-0008-1

                                CONTENTS

 Section                                                             Page
 A Executive Summary                                                    1
 B Background                                                           2
 C Objectives                                                           3
 D Scope and Methodology                                                3
 E Audit Results                                                        4
 F Other Matter                                                         5

 Attachment
 Management’s Response to Draft Report




                    ACRONYMS AND ABBREVIATIONS

Acronym/Abbreviation   Full Title
ERISA                  Employee Retirement Income Security Act of 1974
FAR                    Federal Acquisition Regulation
IOD                    Insurance Operations Department
Morneau                Morneau Sobeco
OIG                    Office of Inspector General
PBGC                   Pension Benefit Guaranty Corporation
PD                     Procurement Department
PwC                    PricewaterhouseCoopers




                                                                         2005-18/CA-0008-1
                   AUDIT OF PROCUREMENT ACTIVITIES RELATED TO
                      AWARD OF MORNEAU SOBECO CONTRACTS
                    PBGC01-CT-00-0597 AND PBGC01-CT-03-0667
                          AUDIT REPORT 2005-18/CA-0008-1

A. EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Pension Benefit Guaranty Corporation (PBGC) contracted with
Cotton & Company LLP to audit PBGC’s procurement of Morneau Sobeco (Morneau) Contract Nos.
PBGC01-CT-00-0597 and PBGC01-CT-03-0667. The audit included assessing compliance with
applicable federal procurement, acquisition, and contract laws and regulations as well as PBGC policies
and directives related to procurement activities conducted for award of these contracts.

We noted one specific control weakness during our evaluation of PBGC’s performance of acquisition
planning for the Morneau contracts. PBGC maintained incomplete documentation for the procurement of
the initial contract (PBGC01-CT-00-0597). PBGC could not provide advanced planning documentation,
such as the Individual Procurement Plan, or cost-benefit documentation dated before commencement of
the initial contract. Additionally, PBGC provided no documentation that it communicated with a
potentially qualified contractor when deciding to contract directly with Morneau, the subcontractor
presented in the contractor’s Sources Sought response.

We also noted one condition that affects Procurement Department’s (PD) performance of its procurement
activities. PD did not have documented departmental policies and procedures ensuring consistent and
timely performance of daily and monthly duties.

We recommend that PD take the following corrective actions:

        •       Establish and document procedures requiring retention of all documents supporting the
                advanced planning process in accordance with Federal Acquisition Regulation (FAR) and
                PBGC requirements. (OIG Control Number PD-39)

        •       Establish and document detailed policies and procedures for PBGC’s procurement
                activities, including duties performed by the Contracting Officer, Contract Specialists,
                and the Competition Advocate. (OIG Control Number PD-40)

Management’s Comments and Auditors’ Evaluation

We provided a draft of this report to PBGC for comment. In addition, we met with PBGC officials to
discuss the report’s finding and recommendations. PBGC’s response is included as an attachment.
Management agrees to emphasize the requirement to retain documents supporting the acquisition process.
Management does not agree with our second recommendation to establish and document detailed policies
and procedures for PBGC’s procurement process. After considering the reasons for management’s
disagreement, we continue to recommend that detailed policies and procedures be established and
documented.




                                                    1

                                                                                          2005-18/CA-0008-1
B. BACKGROUND

PBGC was established under Title IV of the Employee Retirement Income Security Act of 1974
(ERISA), as amended, to insure the pension benefits of participants in certain private-sector defined
benefit pension plans. PBGC currently protects the pensions of more than 44 million Americans in
approximately 31,000 plans.

PBGC has two major roles: (1) administering the plan termination process, including providing plan
sponsors and administrators with guidance for compliance with legal termination rules, and (2) paying
ERISA Title IV benefits to plan participants and their beneficiaries when a plan terminates with
insufficient assets to pay the benefits.

PD is responsible for planning and administering PBGC’s procurement of goods and services. Each
department is, however, responsible for identifying its needs, performing needs and alternative analyses,
verifying availability of budgetary resources, preparing purchase requisitions, and monitoring contract
performance.

The Insurance Operations Department (IOD) manages most of the process by which insured pension
plans are terminated by their sponsors, or involuntarily by PBGC, and benefits are paid to participants in
those plans.1 A critical portion of this process is valuation of the terminated pension plan and calculation
of benefits due plan participants and their beneficiaries. IOD decided that replacing the procedures and
tools being used with parameter-driven benefit calculation software would greatly improve the valuation
and benefit calculation process.

PBGC published a request for information on June 1, 1999, regarding potentially qualified sources to
provide parameter-driven benefit calculation software that would be capable of valuing pension plans and
calculating individual participant benefits in accordance with ERISA and PBGC regulations. Three firms
responded to this request, including PricewaterhouseCoopers (PwC) with Morneau Sobeco (Morneau) as
a subcontractor. After reviewing the software and products offered by responding vendors, PBGC
concluded that only Morneau met its needs. Morneau, based in Toronto, Canada, provides actuarial
consulting services to both commercial and governmental entities.

A notice was published in the Commerce Business Daily on September 2, 1999, announcing PBGC’s
intention to award a sole-source contract to Morneau, without PwC, to acquire its Ariel software package
and associated services. PBGC’s Competition Advocate approved the sole-source award in February
2000.

PBGC awarded a labor-hour contract to Morneau on July 14, 2000. The purpose of this contract (No.
PBGC01-CT-00-0597) was to provide services required to develop system specifications for modifying
the Ariel software package in four phases, as follows:

            •    Phase 1: Prepare a plan for developing system specifications.

            •    Phase 2: Document PBGC and ERISA regulations, procedures, processes, actuarial
                 standards, and business processes that must be incorporated in the modified Ariel software
                 package.

            •    Phase 3: Produce specifications for modifying the Ariel software package.

1
    Due to reorganization, these functions are now the responsibility of the Benefits Administration and Payment Department.

                                                                 2

                                                                                                             2005-18/CA-0008-1
        •   Phase 4: Develop an overall plan for construction, testing, and review of the modified
            software.

Funding of $541,838 was provided for Phases 1 and 2. The contract effective date was July 24, 2000,
although the Contracting Officer signed the contract on September 27, 2000.

Contract No. PBGC01-CT-00-0597 has been amended 14 times through May 2004 to modify the period
of performance, expand the scope, and increase funding. The contract was incrementally funded for each
phase of the project and for additional requirements including a Reference Guide, pilot rollout, and
currency exchange rate variances. The ceiling amount increased from $541,838 to $2,875,773. The total
amount funded equals the ceiling price.

PBGC awarded Morneau a second sole-source labor-hour contract on December 31, 2002. Contract No.
PBGC01-CT-03-0667, effective January 1, 2003, is for services required to modify the Ariel software
package, provide it for use by PBGC, and assist PBGC in its initial production implementation. The
Contracting Officer signed the contract on May 29, 2003. This contract has been amended 13 times
through October 2004 to modify the period of performance, expand the scope, and increase funding. The
contract was incrementally funded for each phase of the project and for additional requirements including
ongoing monthly Application Service Provider (ASP) costs, currency exchange rate variances, and
software modifications. The ceiling amount increased from $1,788,577 to $11,946,777. The total amount
funded equals the ceiling price.

Through October 2004, the total ceiling price for both contracts increased from $2.7 million to nearly $15
million. PBGC considers both contracts active. The period of performance for the initial contract expired
in May 2004. It has, however, been kept open for any additional specification work needed to complete
the second contract, which is expected to be completed in December 2007.

C. OBJECTIVES

PBGC’s OIG contracted with Cotton & Company to audit PBGC’s procurement of two Morneau
contracts: No. PBGC01-CT-00-0597 and No. PBGC01-CT-03-0667. The audit focused on determining if
procurement actions taken by PBGC for these two contracts were proper with respect to:

        •       Performing acquisition planning.
        •       Publicizing contract availability.
        •       Meeting other than full and open competition circumstances.
        •       Completing sole-source justification (justification, certification, and approval).
        •       Evaluating potential sources.
        •       Determining contractor responsibility.
        •       Negotiating contract terms.
        •       Completing approval and execution of contracts.

D. SCOPE AND METHODOLOGY

The audit included assessing compliance with applicable federal procurement, acquisition, and contract
laws and regulations as well as PBGC policies and directives related to procurement activities conducted
for award of these contracts. We interviewed key personnel involved in the process and reviewed
documents supporting these efforts for compliance and reasonableness.


                                                     3

                                                                                            2005-18/CA-0008-1
We interviewed key persons from PD, IOD, Office of the General Counsel, and the Contracts and
Controls Review Department. We also interviewed a technical contract employee and a former PBGC
employee who were involved in the market research and initiation of the first contract. We reviewed and
gathered all pertinent documents maintained regarding procurement of both contracts and determined if
documents supported stated processes as well as met applicable policies and regulations. Through our
review of this information, we also gained an understanding of PBGC’s procurement process and noted
issues we deemed as possibly affecting other PBGC contracts.

We conducted the audit in accordance with Government Auditing Standards, as promulgated by the
Comptroller General for performance audits. We conducted this audit from October 20, 2004 to March
31, 2005.

E. AUDIT RESULTS

PBGC complied with applicable FAR requirements and PBGC directives, policies, and procedures with
respect to seven of the eight procurement actions discussed in the earlier section titled Objectives. We
noted one control weakness, which is described below.

Incomplete Documentation for Acquisition Planning

PBGC maintained incomplete documentation for the procurement of the initial contract (No. PBGC01-
CT-00-0597). PBGC could not provide advanced planning documentation, such as the Individual
Procurement Plan or cost-benefit documentation dated before commencement of the initial contract.
Additionally, PBGC provided no documentation that it communicated with PwC when deciding to
contract directly with Morneau, the subcontractor presented in PwC’s Sources Sought response.

Without adequate documentation, we are unable to determine if appropriate advanced planning was
performed for the initial contract in compliance with FAR and PBGC policies. Contracts that may have
been initiated without completion of a cost-benefit analysis could result in inefficient use of PBGC
resources.

FAR Subpart 4.801 requires the head of each office performing contracting to establish files containing
records of all contractual actions and maintain the files in a manner that constitutes a complete history of
the acquisition process. In addition, FAR Subpart 7.104 states that acquisition planning should begin as
soon as the agency need is identified, preferably well in advance of the fiscal year in which contract
award is necessary.

Additionally, FAR Subpart 4.805 states that agencies must prescribe procedures for handling, storing, and
disposing of contract files. These procedures must take into account documents held in all types of media,
including microfilm and various electronic media. Agency procedures for contract file disposal must
include provisions that the documents specified in paragraph (b) of this section may not be destroyed
before the retention periods indicated and may be retained longer if the responsible agency official
determines that the files have future value to the government. For contracts (and related records or
documents, including successful proposals) exceeding the simplified acquisition threshold for other than
construction, the retention period is 6 years and 3 months after final payment.




                                                      4

                                                                                            2005-18/CA-0008-1
Recommendation

We recommend the following corrective action:

The PD should establish and document procedures requiring retention of all documents supporting the
advanced planning process in accordance with FAR and PBGC requirements. (OIG Control Number
PD-39)

Management’s Response

Management concurs with the finding and recommendation and will emphasize the requirement to retain
documents supporting the acquisition process.

Auditors’ Evaluation

Management is responsive to our recommendation.


F. OTHER MATTER

We noted the following area for improvement within the PBGC procurement process:

PD Operating Procedures

PD did not have detailed documented departmental policies and procedures related to the award of
contracts. According to PD representatives, PD uses the FAR as its written policy. While the FAR may be
used as a baseline, it does not provide specific daily and monthly duties with deadlines to permit PD to
hold individuals accountable. Written policies and procedures also allow for clear understanding of
requirements by the staff and cross training opportunities. This documentation should include established
turnaround time for negotiation summaries, notification to solicitors, and involvement of the competition
advocate, as well as advanced planning requirements and documentation for the PD.

PBGC Directive GA 15-1, Management Control Program, provides guidance to PBGC management on
improving the accountability and effectiveness of PBGC programs and operations by establishing,
assessing, correcting, and reporting on management controls. The directive implements Office of
Management and Budget Circular A-123, Management Accountability and Control, which implements
Section 2 of the Federal Managers Financial Integrity Act (FMFIA). FMFIA requires the Government
Accountability Office (GAO) to issue standards for internal control in government. GAO’s Standards for
Internal Control in the Federal Government in the section titled Examples of Control Activities cites the
following as appropriate documentation for transactions and internal control:

        Internal control and all transactions and other significant events need to be clearly
        documented and the documentation should be readily available for examination. The
        documentation should appear in management directives, administrative policies, or
        operating manuals and may be in paper or electronic form. All documentation and
        records should be properly managed and maintained.




                                                    5

                                                                                         2005-18/CA-0008-1
Recommendation

We recommend the following corrective action:

The PD should establish and document detailed policies and procedures for PBGC’s procurement
activities, including duties performed by the Contracting Officer, Contract Specialists, and the
Competition Advocate. (OIG Control Number PD-40)

Management’s Response

Management does not concur with the finding and recommendation. The response states that the FAR
was adopted as PBGC’s policy for the acquisition of goods and services and supplemental policies and
procedures are not required or needed. The response also indicates that PBGC directive FM 15-1, PBGC
Systems for the Requisition of, Acquisition of and Payment for Goods and Services, discusses specific
policies and procedures and Contract Specialists are experienced and receive training related to
acquisition requirements.

Auditors’ Evaluation

We do not agree with management’s response. While the FAR and PBGC directive FM 15-1 may be
used as a baseline, they do not document specific daily and monthly responsibilities related to the award
of contracts. We continue to recommend that the PD establish and document detailed policies and
procedures for PBGC’s procurement activities.




                                                    6

                                                                                          2005-18/CA-0008-1
            ATTACHMENT

MANAGEMENT’S RESPONSE TO DRAFT REPORT




                                        2005-18/CA-0008-1
To:           Luther Atkins, Assistant Inspector General for Audits
              Office of Inspector General

From:         Robert Herting, Contracting Officer
              Procurement Department

Subject:      Response to Draft Report Regarding the Procurement Activities Related to
              Morneau Sobeco Contracts PBGC01-CT-00-0597 and PBGC01-CT-03-
              0667

Thank you for the opportunity to review the draft report. The audit focused on
determining if procurement actions taken by PBGC for the above-referenced contracts
were proper. We are pleased that the report concluded that, except for the retention of
certain acquisition planning documents, PBGC complied with applicable Federal
Acquisition Regulation (FAR) requirements and PBGC directives, policies and
procedures. We acknowledge that those acquisition planning documents should have
been retained, but it is important to note that the report does not take exception to the
appropriateness of these contract awards. The contract award process is taken very
seriously by PBGC, and we continually emphasize the need to ensure that contract
awards are made in accordance with the FAR requirements. Our responses to the specific
recommendations included in the report are detailed below:

1.      Incomplete Documentation for Acquisition Planning

OIG Recommendation:

We recommend that PD take the following corrective action: Establish and document
procedures requiring retention of all documents supporting the advance planning process
in accordance with the Federal Acquisition Regulation (FAR) and PBGC requirements.

Management Response:

We concur. We will emphasize the requirement to retain acquisition planning documents
to Contract Specialists, and ensure that such documents supporting procurement planning
processes are retained in the future.
2.     PD Operating Procedures

OIG Recommendation:

We recommend that PD take the following corrective action: Establish and document
detailed policies and procedures for PBGC’s procurement activities, including duties
performed by the Contracting Officer, Contract Specialists, and the Competition
Advocate.

Management Response:

We do not concur. The report does not identify any significant issues regarding the
appropriateness of these contract awards or other issues that would indicate the need for
additional policies and procedures. It has been the policy of the Procurement Department
to adopt the Federal Acquisition Regulation (FAR) for the purposes of procuring goods
and services for PBGC. The FAR provides specific guidance for the purpose of the
award, administration, and settlement of contracts. The FAR anticipates that the
Contracting Officer must exercise judgment in making contract awards. We are not
aware of a specific FAR requirement for supplemental policies and procedures, and the
report does not reference such a requirement. In fact, PBGC has not seen the need to
develop supplemental guidance as other agencies have done (e.g., Defense Federal
Acquisition Regulation Supplement).

PBGC does maintain specific policies and procedures over the acquisition of goods and
services as detailed in existing PBGC directive entitled, FM 15-1 - PBGC Systems for the
Requisition of, Acquisition of and Payment for Good and Services. This directive details
the responsibilities of the Contracting Officer, Procurement Department staff, and the
Competition Advocate. Contract Specialists working in the Procurement Department all
have extensive experience, and have received training relating to acquisition
requirements.

If you have questions regarding this memorandum, please contact me.
